v*A

.*« i

No.

3n ttft
£>upremt Court of fjjt SJntteb State*
DAVID MAURICE MILNER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for A Writ of Certiorari to the United
States Court ofAppeals for the Fifth Circuit
CERTIFICATE OF SERVICE
I, David Maurice Milner, Petitioner pro se, hereby
certify that on this 3i5 day of
, 2021, as
required by Supreme Court Rule 29, I have served a y
true copy of the enclosed Motion for Leave to Proceed
In Forma Pauperis
Petition for Writ of Certioran,
on each party to the above styled proceeding or that
party’s counsel by depositing same in the United
States mail with postage prepaid and affixed thereon,

.J*

*,>>

to: The Solicitor General of the United States of
America, Department of Justice, 950 Pennsylvania
Ave., N. W., Room 5614, Washington, D.C. 20530 and
counsel for Respondent, United States of America,
Office of the United States Attorney for the Western
District of Texas, 601 N.W. Loop 410, San Antonio, TX
78216-5512.

V-DA'VID

xjricrMlner

Pro Se Petitioner
Fed. Reg. No. 65724-380
FCI Phoenix
37910 North 45th Avenue
Phoenix, Arizona 85086

